U.S. Department of the Interior                                 Office of Inspector General


                              EXECUTIVE SUMMARY

                         Independent Auditors Report on the
                Financial Statements for Fiscal Years 1999 and 1998
          for the Office of the Special Trustee for American Indians Tribal
       and Other Special Trust Funds and Individual Indian Monies Trust Funds
                Managed by the Office of Trust Funds Management
                                 Report No. 01-I-205
                                     January 2001

The Office of Trust Funds Management contracted with the independent public accounting firm
of Griffin and Associates, P.C., to audit the financial statements of the Office of the Special
Trustee for American Indians. For the fiscal year 1999 annual financial report, two sets of
financial statements with accompanying notes were issued: one set for the Tribal and Other
Special Trust Funds and one set for the Individual Indian Monies Trust Funds.

Griffin and Associates issued qualified opinions because cash balances were materially
greater than those reported by the U.S. Treasury, major deficiencies in the accounting systems=
controls and records caused the systems to be unreliable, and certain Trust Funds=
beneficiaries disagreed with balances recorded by the Office of Trust Funds Management and
had filed or were expected to file claims against the Office of Trust Funds Management.
These conditions prevented the cash and Trust Funds balances and the receipts and
disbursements from being audited. In addition, a potential liability to the Federal Government
existed because of the lawsuits filed over the Government=s fiduciary responsibilities.

Griffin and Associates= report on the internal control structure contained two new nonmaterial
internal control weaknesses: one on interfund and intrafund transfers and one on fund level
reporting. The report made two recommendations to correct these weaknesses.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL EVALUATION

Based on the response from the Office of Trust Funds Management, both recommendations
were considered resolved but not implemented.
2
           substantial manual efforts to identify and reclassify these transfers for financial
           reporting purposes.

        - Fund level reporting. The current system is designed to generate individual trust
          account statements but does not currently generate a fund level statement of trust
          fund balances or statement of changes in trust fund balances. Such statements are
          currently generated through off-line manipulation of the system data.

The report also contained a summary of all internal control issues (pages 42-44). Of the
44 issues reported, 2 were for the current year and 42 were from prior years’ audit reports.
Of the 42 issues, 17 recommendations remained unimplemented as of September 30, 1999
(pages 49-60). However, 10 of these unimplemented recommendations are addressed to or
are to be implemented by the Office of Trust Funds Management, 4 are addressed to or are to
be implemented by the Bureau of Indian Affairs, and 3 are addressed to or are to be jointly
implemented by the Office of Trust Funds Management and the Bureau.

Compliance

Griffin and Associates’ report on compliance with laws and regulations (pages 61-64)
contained one material noncompliance issue, two immaterial noncompliance issues, and two
other noncompliance issues.

The material issue was that tribal organizations and classes of individual Indians have filed
various claims against the Federal Government for its failure to fulfill its fiduciary
responsibilities and have made other related charges. The immaterial noncompliance issues
(Nos. C.1 and C.3) related to the Office of Trust Funds Management’s accepting voluntary
deposits, which are generally prohibited by the Code of Federal Regulations (25 CFR 115.8),
and agency offices’ accumulating funds in excess of $5,000 before deposits to the Treasury
were made, which was in violation of the Treasury Fiscal Requirement. The report noted
several instances where the Office of Trust Funds Management accepted voluntary deposits to
Individual Indian Money accounts.

The other noncompliance issues related to the Office of Trust Funds Management’s disclosure
in its management representation letter that, since September 30, 1995, it had not complied
with the Federal Managers’ Financial Integrity Act of 1982 and that the Office of Trust Funds
Management had not followed proper delegation of authority procedures for making
disbursements from accounts. Specifically, the Office of Trust Funds Management did not
assess (1) the effectiveness of its internal control structure over safeguarding the assets against
unauthorized acquisition, use, or disposition; (2) compliance with laws and regulations; and
(3) financial reporting based upon control criteria established under the Act.

The report contained no recommendations for the compliance issues because it is implied that
the agency should comply with the law or the regulation.




                                                4
 Based on the response from the Office of Trust Funds Management (which was incorporated
into Griffin and Associates’ report), we consider the recommendations resolved but not
implemented. Accordingly, the recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation.

In conjunction with the audit, we reviewed Griffin and Associates’ report and related working
papers. Our review, as differentiated from an audit performed in accordance with generally
accepted government auditing standards, was not intended to enable us to express, and we do
not express, opinions on the financial statements of the Office of the Special Trustee for
American Indians, on management’s assertions about the effectiveness of its internal controls,
or on its compliance with applicable laws and regulations. Griffin and Associates is
responsible for the auditors’ report dated April 2000 and the conclusions expressed in the
report. However, our review disclosed no instances in which the independent public
accountant did not comply in all material respects with generally accepted auditing standards.

Since the report=s recommendations are considered resolved, no further response to the Office
of Inspector General is required (see Appendix 1).

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

This report is intended for the information of management of the Office of the Special Trustee
for American Indians, the Bureau of Indian Affairs, the Office of Management and Budget, and
the Congress. However, this report is a matter of public record, and its distribution is not
limited.



                                                Roger La Rouche
                                                Assistant Inspector General
                                                 for Audits


[CONTACT THE OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS, FOR
INFORMATION ON THE FINANCIAL STATEMENTS FOR FISCAL YEARS 1999 AND 1998,
FOR THE OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS TRIBAL AND
OTHER SPECIAL TRUST FUNDS AND INDIVIDUAL INDIAN MONIES TRUST FUNDS
MANAGED BY THE OFFICE OF TRUST FUNDS MANAGEMENT, WHICH ARE NOT
INCLUDED.]




                                               5
                                                                       APPENDIX 1




                                 STATUS OF CURRENT
                          AUDIT REPORT RECOMMENDATIONS



Internal Control Issues

Responsibility of the Office of Trust Funds Management:

  Finding/Recommendation                  Status                Action Required
         Reference

43 and 44                       Resolved;                 No response to the Office of
                                not implemented.          Inspector General is required.
                                                          The recommendations will be
                                                          referred to the Assistant
                                                          Secretary for Policy,
                                                          Management and Budget for
                                                          tracking of implementation.

Compliance Issue

Responsibility of the Office of Trust Funds Management:

  Finding/Recommendation                  Status                Action Required
         Reference

Unnumbered issue regarding      Resolved;                 No response to the Office of
claims against the Government   not implemented.          Inspector General is required.
                                                          The compliance issue will be
                                                          referred to the Assistant
                                                          Secretary for Policy,
                                                          Management and Budget for
                                                          tracking of implementation.




                                              6
